                       Closeout of M90090034

This case came to the attention of OIG on September 21, 1990.




Officials of the institution informed OIG that the published
papers containing the falsified data acknowledge funding by NIH
but not by N S F .  We were also informed that neither subject
received personal research support from N S F during the period of
the alleged misconduct, and that none of the work related to the
allegations was supported by N S F . Though the laboratory in which
the subjects worked has NSF support, the institution certified
that neither subject used any equipment or supplies funded in any
way by NSF.      On this basis, we conclude that NSF has no
involvement in this matter, and therefore the case is being
closed.




August 26, 1991
           .. .
             ..   -;
